February 20, 2009

DELORES J. KILLETTE
VICE PRESIDENT AND CONSUMER ADVOCATE

PRITHA N. MEHRA
VICE PRESIDENT, BUSINESS MAIL ENTRY AND PAYMENT TECHNOLOGIES

MAURA ROBINSON
VICE PRESIDENT, PRICING

PATRICIA M. MASON
MANAGER, USPS.com

SUBJECT: Audit Report – Cooperative Mail Rule Exception
         (Report Number MS-AR-09-004)

This report presents the results of our review of the Cooperative Mail Rule (CMR)1
exception (Project Number 08RG019MS000). The report responds to a request from
U.S. Representative Henry A. Waxman’s office to review the CMR exception to
(1) evaluate how the Postal Service monitors the CMR exception to identify abuses,
(2) evaluate the use of the CMR exception among nonprofit mailers, and (3) determine
the impact if the U.S. Postal Service changes the CMR exception. See Appendix A for
additional information about this audit.

Conclusion

The Postal Service does not have a process to monitor and identify CMR exception
abuses. Because Postal Service data does not identify nonprofit organizations (NPO)
or for-profit organizations (FPO) that are using the exception for their mailings, it would
be impossible for the Postal Service to currently monitor use of the exception. The
Postal Service needs to collect data regarding use of the CMR exception during the mail
acceptance process to enable monitoring for abuses.

Furthermore, the CMR exception policy, as written, is not clear and does not define
cost, risk or benefit or provide guidance on the types of FPOs that NPOs can cooperate

1
 The CMR allows two or more authorized NPO to share the cost, risk, or benefit of a mailing and mail at Nonprofit
Standard Mail® rates. The CMR exception allows an authorized nonprofit organization to share the cost, risk or
benefit of a fundraising mailing with a for-profit organization and mail at Nonprofit Standard Mail rates.
Cooperative Mail Rule Exception                                                                     MS-AR-09-004



with to raise funds.2 Finally, the Postal Service can assist with efforts to promote
transparency in the nonprofit sector by providing educational information to nonprofit
mailers and links to federal and state charity regulation information on USPS.com®.
We will report improved service as a non-monetary outcome in our Semiannual Report.

Method Needed to Monitor the Exception to Identify Abuses

The Postal Service does not have a process in place to monitor the CMR exception to
identify abuses. Consumer Affairs, Mailing Standards, and Postal Inspection Service
management said that because they have not received any complaints about the CMR
exception, they are not sure whether there is a problem. The U.S. Postal Service Office
of Inspector General (OIG) believes that although the Postal Service has not received
any complaints, management needs to implement the most effective method to ensure
there are no abuses of the CMR exception. See Appendix B for our detailed analysis of
this topic.

We recommend the Vice President and Consumer Advocate:

1. Work with Mailing Standards, Bulk Mail Acceptance, and Postal Inspection Service
   officials to determine the most effective means to monitor the Cooperative Mail Rule
   exception to identify abuses.

2. Work with the Vice President, Business Mail Entry and Payment Technologies, to
   communicate what will be required of nonprofit mailers to assist with monitoring
   efforts.

Management’s Comments

Management partially agreed with recommendation 1, asserting that the Postal Service
has a process in place to monitor complaints of CMR exception abuse. Management
stated that because there have been no reports of abuse, the Consumer Advocate can
only agree to work with Mailing Standards, Business Mail Acceptance, and the Postal
Inspection Service to buttress the existing system if abuses are revealed.

Management agreed with recommendation 2 and will communicate the process to
capture complaints at the point of mail acceptance and elevate complaints to the
Consumer Advocate by June 2009. See Appendix F for management’s comments, in
their entirety.




2
  The term FPO in this report represents professional fundraisers, commercial fundraisers, commercial agencies, and
for-profit professional fundraiser organizations. The term NPO in this report represents charity, except in cases
where the term charity is more appropriate or in the official title of the organization.




                                                         2
Cooperative Mail Rule Exception                                                                   MS-AR-09-004



Evaluation of Management’s Comments

We concur with management’s position on recommendations 1 and 2. The Consumer
Advocate’s agreement to work with Mailing Standards, Business Mail Acceptance, and
Postal Inspection Service to modify the existing system if abuses occur is sufficient.
Management’s plan to communicate the process to capture CMR exception complaints
at the point of mail acceptance will provide authorized NPOs with the necessary
information should there be a need to file a complaint. Management’s elevation of CMR
exception complaints to the Consumer Advocate will assist with complying with the
promise to revisit the exception if abuses occur, and if necessary, to consider further
rulemaking or other administrative measures.

The OIG considers management’s comments responsive to recommendations 1 and 2,
and the corrective actions should resolve the issues identified in the report.

Acceptance Procedures for Exception Mailings Need Strengthening

Thirteen out of 18 mail acceptance employees we interviewed were not knowledgeable
of the CMR exception. Fifteen3 of these employees stated they had not received
training on the CMR exception. In addition, Headquarters Mail Acceptance
management said that when the CMR exception was implemented in November 2003,
they did not receive direction from Consumer Affairs on the type of training to provide to
mail acceptance clerks. Consequently, without adequate training, mail acceptance
employees cannot provide NPOs with information and cannot assist with identifying
abuses of the CMR exception or with evaluation of mailings to ensure compliance with
the requirements to receive the Nonprofit rate. See Appendix B for our detailed analysis
of this topic.

We recommend the Vice President, Business Mail Entry and Payment Technologies:

3. Coordinate with the Vice President and Consumer Advocate and Vice President,
   Pricing, to develop training for mail acceptance employees covering acceptance
   procedures for Cooperative Mail Rule exception mailings.

4. Coordinate with the Vice Presidents, Area Operations, to train mail acceptance
   employees on procedures for accepting Cooperative Mail Rule exception mailings.

Management’s Comments

Management agreed with recommendations 3 and 4. Management will repeat and
reinforce the training of all appropriate field mail acceptance employees by June 2009.

Evaluation of Management’s Comments
3
  Two of the mail acceptance clerks who said they were knowledgeable about the CMR exception said they did not
receive training.




                                                       3
Cooperative Mail Rule Exception                                                MS-AR-09-004




The OIG considers management’s comments responsive to recommendations 3 and 4,
and the corrective actions should resolve the issues identified in the report.

Data Not Available on Exception Usage

The Postal Service does not currently collect data from mailers regarding use of the
CMR exception — such as the names of NPOs and FPOs using the exception — and
whether the NPO waived its right to the donor list. Management officials in Business
Mail Acceptance stated they did not receive instructions from Consumer Affairs to
create a method to collect information on CMR exception usage. Because the Postal
Service does not collect or maintain this data, management does not have information
to determine usage or make decisions regarding the impact of the exception on the
nonprofit sector.

In order for us to evaluate CMR exception usage, we surveyed a statistical sample of
5,004 NPOs authorized to mail at Nonprofit Standard Mail rates. We received very
limited responses — of the 670 respondents, none used the CMR exception. Because
of the limited response rate and the fact that the respondents did not use the exception,
it was difficult to make use of much of the survey data. However, almost seven times as
many respondents stated that modifying the CMR exception would have a positive
rather than a negative impact on their fundraising ability (48 versus 7). Additionally, the
respondents generally supported keeping the exception. More than three times as
many respondents indicated that removing the exception would have a negative rather
than a positive impact on their ability to raise funds (45 versus 14). See Appendix B for
our detailed analysis of this topic.

We recommend the Vice President, Business Mail Entry and Payment Technologies:

5. Work with the Vice President and Consumer Advocate and the Vice President,
   Pricing, to develop and implement a method to collect data pertaining to the use of
   the Cooperative Mail Rule exception.

Management’s Comments

Management disagreed with recommendation 5. They stated that because there are no
cases of CMR exception abuses, and given the present financial climate, the Postal
Service cannot justify the substantial expenditure for developing and deploying such a
data collection system.

Management also noted that it is not the Postal Service’s responsibility to monitor
whether an authorized NPO employs a FPO, and the Postal Service does not have the
authority to dictate the terms of business relationships between authorized NPOs and
the FPOs they employ.




                                             4
Cooperative Mail Rule Exception                                                                         MS-AR-09-004



Evaluation of Management’s Comments

The OIG understands the Postal Service’s present financial climate and agrees that at
this time, substantial expenditures in this issue area may not be prudent. However, the
Postal Service agreed to monitor use of the CMR exception for abuses when the
exception was finalized. Without data on the use of the exception, monitoring is not
possible.

The OIG did not state that the Postal Service is responsible for monitoring NPOs’
employment of FPOs or the terms of their business relationships. The OIG
recommends collecting data to identify users of the CMR exception that will assist with
future decision-making efforts regarding the rule. We believe data collection methods
should be explored when the Postal Service’s financial position improves. Although
there is disagreement with this recommendation, we do not intend to elevate this issue
to audit resolution.

Clarify Existing Exception Policies

The CMR exception policies do not define cost, risk, and benefit or spell out the types of
permissible relationships that an NPO can participate in with an FPO when fundraising.
A Mailing Standards management official said the language in the CMR exception
policy is vague because, at the time, the Postal Service did not want the public to
perceive it as exceeding its authority over the relationship between NPOs and FPOs.
However, this official believes it does make sense to clarify the existing CMR exception
policies. Clarification of these policies is critical to ensuring mailers fully understand
what is permitted and prohibited, and to assist in preventing abuse in this area. Some
of the external stakeholders4 who were familiar with the CMR exception believe the
CMR exception as currently written allows fraud and abuse by FPOs assisting NPOs.5
Additionally, inadequate clarity could result in the Postal Service losing revenue due to
mailers inappropriately mailing at Nonprofit rates. See Appendix B for our detailed
analysis of this topic.

We recommend the Vice President, Pricing:

6. Clarify existing Cooperative Mail Rule exception policies and procedures by defining
   cost, risk, and benefit and outlining specifics regarding the relationships allowed
   between authorized nonprofit organizations and for-profit organizations.




4
  Stakeholders included associations representing NPOs and FPOs, state charity regulators, consumer protection
organizations, charity watchdog organizations, and direct mail companies.
5
  Organizations within the nonprofit sector cite abuses including ownership of acquired donor lists, guarantee of
results (e.g., a net dollar amount), ownership of the mailpiece or package, control of donations, sharing donations,
(e.g., compensation by percentage of gross or net donations), and extension of loans or cash advances.




                                                           5
Cooperative Mail Rule Exception                                               MS-AR-09-004



7. Work with the Vice President, Business Mail Entry and Payment Technologies, to
   communicate the clarified policies and procedures to authorized nonprofit
   organizations and for-profit organizations.

Management’s Comments

Management agreed with recommendations 6 and 7. Management will use its
resources to clarify the existing CMR exception policies and procedures, to include
issuing additional customer support rulings if necessary and revising Publication 417,
Nonprofit Standard Mail Eligibility, to give more examples of how those policies are
interpreted. They plan to accomplish these actions by June 2009.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 6 and 7,
and the corrective actions should resolve the issues identified in the report.

Transparency and Charity Regulation

The Postal Service could assist federal and state charity regulators and charity
watchdog organizations with efforts to promote transparency in the nonprofit sector by
providing educational information on the CMR exception and its use as well as links to
consumer protection and charity regulation information on USPS.com. Basic
information and links to relevant sites could assist mailers and NPOs in making
appropriate use of this exception by informing them of their rights and responsibilities.
Although stakeholders have suggested the Postal Service could administer a national
database of charities, most of the stakeholders we interviewed believe such a database
is not a part of the Postal Service’s jurisdiction or mission and would duplicate what is
currently available through organizations that provide similar information to consumers.
See Appendix B for our detailed analysis of this topic.

We suggest the Manager, USPS.com:

8. Add educational information about the Cooperative Mail Rule exception as well as a
   link on USPS.com directing consumers to existing federal and state charity
   regulators’ websites that are committed to improving transparency in the nonprofit
   sector.

Management’s Comments

Management agreed with the suggestion. Management will modify usps.com to provide
more information about charities to consumers by May 2009.




                                            6
Cooperative Mail Rule Exception                                              MS-AR-09-004



Evaluation of Management’s Comments

The OIG considers management’s comments responsive, and the corrective actions
should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert Mitchell, Director, Sales
and Service, or me at (703) 248-2100

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Robert F. Bernstock
    Thomas G. Day
    Stephen M. Kearney
    William R. Gilligan, Jr.
    Vice Presidents, Area Operations
    Debra A. Harris, Postal Inspection Service
    Katherine S. Banks




                                            7
Cooperative Mail Rule Exception                                                                        MS-AR-09-004



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Nonprofit Standard Mail is defined as printed matter (such as pamphlets, newsletters,
direct mail, or merchandise) that weighs less than 16 ounces and is eligible for nonprofit
prices if mailed by an authorized NPO. The Postal Service allows certain NPOs such
as religious, educational, scientific, philanthropic, agricultural, labor, veterans, and
fraternal entities to mail at Nonprofit Standard Mail® rates.6 The eligible organization
must submit a completed Postal Service (PS) Form 3624, Application to Mail at
Nonprofit Standard Mail Rates, along with required documentation, at a local post office
or electronically.7 Table 1 provides the number of NPOs the Postal Service has
authorized to mail at Nonprofit Standard Mail rates by calendar year.

                             Table 1. Authorized Nonprofit Mailers
                           End of          Authorized
                        Calendar Year Nonprofit Mailers      Increase
                            2001             274,490             --
                            2002             286,974          12,484
                            2003             306,144          19,170
                            2004             317,496          11,352
                            2005             324,208           6,712
                            2006             337,379          13,171
                            2007             352,823          15,444
                     Source: U.S. Postal Service, PCSC

Nonprofit Standard Mail rates are priced at 60 percent of commercial rates and NPOs
are also eligible for appropriate presort discounts. Table 2 provides Nonprofit Standard
Mail volume and revenue8 by fiscal year (FY).




6
   Domestic Mail Manual (DMM), Chapter 703, Nonprofit Standard Mail and Other Unique Eligibility, Subsection 1.2,
Qualified NPO, updated March 13, 2008.
7
   An eligible organization can apply to mail at Nonprofit Standard Mail rates in person at any postal facility or
electronically through PostalOne! as of August 24, 2008. The organization completes a PS Form 3624 and forwards
it to the Pricing Classification Service Center (PCSC) in New York for review and approval. The eligible organization
must provide required documentation, such as the Internal Revenue Service (IRS) letter of federal tax exemption,
organization articles of incorporation or charter, and an example of the organization’s mission statement.
8
   The Revenue Forgone Reform Act of 1993 (the Act) eliminated appropriations to support reduced rates for
nonprofits and transferred the cost to other mailers. The Act only retained free postage for the blind and for voting
material under the Uniform and Overseas Citizens Absentee Voting Act and for certain consular and diplomatic
officials. The Act appropriated $29 million each year from 1994 through 2035 to compensate for past years’
insufficient appropriations.




                                                          8
Cooperative Mail Rule Exception                                                                  MS-AR-09-004



                    Table 2. Nonprofit Standard Mail Volume & Revenue
                    Fiscal    Nonprofit Standard     Nonprofit Standard
                     Year     Mail Volume (000s)   Mail Revenue ($000s)
                    2001          14,423,446             $1,672,146
                    2002          14,006,494             $1,696,646
                    2003          14,527,723             $1,816,272
                    2004          14,441,837             $1,796,415
                    2005          15,046,802             $1,855,416
                    2006          14,602,767             $1,859,245
                    2007          14,783,682             $1,935,547
                Source: Postal Service, Revenue Pieces and Weight by Classes of Mail

The Postal Service is not required to measure the cost to process nonprofit standard
mail separately from commercial mail.9 As a result, the Postal Service does not have
specific cost data associated with processing Nonprofit Standard Mail.

The CMR allows one or more NPOs to share the cost, risk or benefit of a mailing.
Cooperative mailings are entered at Nonprofit Standard Mail rates only if all cooperating
NPOs are authorized to mail at that rate. The CMR does not allow NPOs to share the
cost, risk or benefit of a mailing with FPOs and mail at the Nonprofit Standard Mail rate.
In 2001 the U.S. House of Representatives and the U.S. Senate attempted to modify
the CMR to allow authorized NPOs to partner with FPOs and mail at Nonprofit Standard
Mail rates.10 These efforts did not result in any legislative changes to the CMR.

The Postal Service issued a proposal in the May 6, 2003, Federal Register11 to amend
DMM standards for mail matter eligible for Nonprofit Standard Mail rates. The Postal
Service received 67 comments on the proposal and although the majority of the
respondents supported the proposal, several organizations stated the CMR exception
could allow abuse by some FPOs. These organizations wanted the Postal Service to
add language to the CMR exception that protects NPOs.12

In November 2003, the Postal Service amended the DMM to include an exception to the
CMR allowing NPOs to share the cost, risk or benefit to solicit monetary donations only
and mail at Nonprofit Standard Mail rates.13 The solicitation cannot promote or facilitate
the sale or lease of any goods or services and the authorized nonprofit mailer must
receive a list of each donor including contact information and the amount of the


9
  Public Law 106-384, Reduced Rate Mail Modification Provisions, October 27, 2000.
10
   107th Congress, U.S. House of Representatives Bill HR1169 presented in March 2001 and U.S. Senate Bill S1562
presented in October 2001. Neither bill received action from the committees to which they were forwarded.
11
   Federal Register, Volume 68, Number 87, Rules & Regulations Regarding CMR, Proposed Rule: Eligibility
Requirements for Certain Nonprofit Standard Mail Matter, May 6, 2003.
12
   The organizations provided the Postal Service with language to include in the amendment that would protect
NPOs; however, the Postal Service elected not to include the additional language.
13
   Federal Register, Volume 68, Number 196, Rules & Regulations Regarding CMR, Final Rule: Eligibility
Requirements for Certain Nonprofit Standard Mail Matter, October 9, 2003.




                                                       9
Cooperative Mail Rule Exception                                                                               MS-AR-09-004



donation.14 If the authorized nonprofit mailer does not want the donor list, a written
waiver is required. This type of cooperative mailing can be mailed at Nonprofit
Standard Mail rates.

According to the Urban Institute’s National Center for Charitable Statistics (NCCS), in
2006 there were more than 1.4 million public charities, private foundations, and other
Internal Revenue Code Section 501(c)15 NPOs in the U.S. According to the NCCS,
public charities include most organizations in the arts, education, healthcare, and
human services and are what most people mean when they use the term nonprofit
organization. Private foundations typically fund 501(c)(3) public charities and are
usually endowed by a founding individual, family, or corporation. The “other” category
includes social and recreational clubs, trade associations, labor unions, veterans
associations, and advocacy organizations.16 The combined total revenue these
organizations generated in 2006 was more than $1.7 trillion. Chart 1 depicts the
number of NPOs by type and chart 2 depicts the revenue generated by type of NPO in
2006.




14
   Publication 417, Nonprofit Standard Mail Eligibility, Chapter 5, Cooperative Mailings, Subsection 5-2.1, Scope of
CMR, March 2006.
15
   Title 26, USC, § 501(c) is a provision of the Internal Revenue Code listing 28 types of NPOs exempt from some
federal income taxes. These NPOs are generally nonprofit corporations, funds, and foundations for education,
religious, charitable, or scientific purposes; civic leagues for general social welfare; or fraternal beneficial societies,
orders, or associations.
16
   The Nonprofit Sector in Brief, Facts and Figures from the Nonprofit Almanac 2008: Public Charities, Giving, and
Volunteering, The Urban Institute, 2008.




                                                             10
Cooperative Mail Rule Exception                                                                       MS-AR-09-004



                             Chart 1. Number of Nonprofit
                                 Organizations 2006

                                                              501c3 Public
                                                              Charities 61.2%


                      464,029

                                                              501c3 Private
                                                              Foundations 7.4%


                                             904,313

                      109,852                                 Other 501c
                                                              Nonprofit
                                                              Organizations
                                                              31.4%


                         Chart 2. Revenue by Type of Nonprofit
                                   Organization 2006


                                                                  Public Charities
                                                                  $1.25 Trillion




                                                                  Private
                                                                  Foundations
                                                                  $83.6 Billion



                                                                  Other Nonprofit
                                                                  Organizations
                                                                  $372 Billion


                           Source: NCCS17

Direct mail fundraising campaigns are a popular option for NPOs. On average in 2006,
45.4 percent of the mail households received contained a request for funds with the
majority of the requests made by NPOs.18 The Direct Marketing Association (DMA)
states that direct mail, as a fundraising technique, was 70.5 percent successful in 2007.

According to direct mailers, on average, a direct mail campaign can cost anywhere from
$400 to $500 per thousand mailpieces, so a mailing of 25,000 could cost between
$10,000 to $12,500.19 Chart 3 shows the cost distribution for a sample direct mail
budget.20


17
   NCCS data is based on 2006 Form 990 filings from the IRS Business Master File as of January 2007.
18
   This document sources the Household Diary Study, Mail Use & Attitudes in FY 2007, published by the Postal
Service.
19
   Association of Direct Response Fundraising Counsel (ADRFCO) and the Association of Fundraising Professionals
(AFP) members participated in an e-mail survey regarding their clients’ use of the CMR exception and we obtained
information about the cost of a direct mail campaign.
20
   DMA Statistical Factbook, 30th Edition, 2007. Allocated fees include ad agency, consultant, and contingency costs.
The postage is automation standard.




                                                         11
Cooperative Mail Rule Exception                                                                    MS-AR-09-004



                 Chart 3. Direct Mail Budget Distribution

                                                                        Creative, Art & Prep 21%

                                    15%
                                                  21%
                                                                        Printing & Letter Production
                                                                        27%


                                                                        Allocated Fees 13%
                              24%

                                                    27%                 Postage - No Discounts 24%


                                       13%
                                                                        Mailing List & Computer
                                                                        Production 15%

                                    Source: DMA Statistical Fact Book

According to the ADRFCO, the most tangible asset an NPO will gain from direct mail
fundraising is the list of donors. The average annual net revenue an NPO may expect
for renting its list of donors is $13,500 for a list of 25,000 donors.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our review were to evaluate how the Postal Service monitored the
CMR exception to identify abuses, evaluate the use of the CMR exception among
nonprofit mailers, and determine the impact if the Postal Service changes the CMR
exception. To accomplish our objectives, we:

   o Documented and reviewed policies and procedures pertaining to the CMR
     exception.

   o Evaluated how the Postal Service monitors the CMR exception to determine
     whether abuses are occurring, by conducting interviews with Postal Service
     management in the Office of Consumer Affairs and documenting the process
     used to handle complaints. In addition, we conducted interviews with the Postal
     Inspection Service and Postal Service management in Mailing Standards and
     Business Mail Acceptance. OIG auditors also conducted interviews at 18
     randomly selected postal facilities during previously planned work in support of
     the FY 2008 financial statements audits to assess mail acceptance employees’
     knowledge of the CMR exception.

   o Evaluated the use of the CMR exception among authorized NPOs by sending a
     survey to a statistical sample of 5,004 authorized NPOs. We also documented
     the process FPOs used to conduct direct mail fundraising campaigns and
     judgmentally surveyed 11 direct mail FPOs that assist NPOs with fundraising
     efforts. See Appendix D for details of the sampling methodology used to survey
     authorized nonprofit mailers.




                                                     12
Cooperative Mail Rule Exception                                                                    MS-AR-09-004



    o Evaluated the potential impact of changes to the CMR exception by analyzing
      documents and conducting interviews with associations representing NPOs,
      FPOs assisting NPOs, associations representing FPOs, state charity regulators,
      the Combined Federal Campaign (CFC), the Federal Trade Commission (FTC),
      the IRS, the Treasury Inspector General for Tax Administration, and several
      consumer protection organizations. In addition, we reviewed the transcripts and
      testimonies of three Congressional hearings relating to the CMR exception.
      Finally, we reviewed and discussed with the Postal Regulatory Commission
      (PRC) its public inquiry into the CMR exception.21

    o Reviewed and summarized studies and reports regarding the nonprofit sector
      and charity regulation efforts located on websites sponsored by associations
      representing NPOs, associations representing FPOs, charity watchdog
      organizations, the IRS, and the FTC. We also reviewed a Government
      Accountability Office (GAO) report and testimony22 about IRS charity regulation
      efforts and interviewed the GAO Director who led the work to discuss the audit
      findings and recommendations.

We conducted this performance audit from June 2008 through February 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

We relied upon computer-generated data retrieved from the Official Classification and
Records Authorization (OCRA) system to obtain a listing of nonprofit mailers authorized
to mail at Nonprofit Standard Mail rates. 23 At the time of our review, the Postal Service
began a migration of OCRA data into the PostalOne! system.24 Although we did not
attest to the reliability of the OCRA data, we performed a limited analysis of the data
and excluded records with incomplete addresses from our universe. To ascertain the
accuracy of the mailing addresses in the OCRA database, we compared the OCRA




21
   Inquiry into the Cooperative Mail Rule Exception, Docket Number PI2008-4, issued April 22, 2008, Postal
Regulatory Commission.
22
   Tax Exempt Organizations, Improvements Possible in Public, IRS, and State Oversight of Charities, Report to the
Chairman and Ranking Minority Member, Committee on Finance, U.S. Senate, GAO-02-526, April 2002; Tax Exempt
Sector, Governance, Transparency, and Oversight Are Critical for Maintaining Public Trust, GAO-05-561T,Testimony
before the House Committee on Ways and Means on Wednesday, April 20, 2005.
23
   The OCRA system was a database containing information about authorized nonprofit mailers. According to PCSC
management officials, the server that housed the OCRA database was retired in August 2008 and all of the data
regarding authorized nonprofit mailers was migrated to PostalOne!
24
   The PostalOne! system is a suite of services that offers web-based initiatives to business mailers and business
mail acceptance employees.




                                                       13
Cooperative Mail Rule Exception                                                                     MS-AR-09-004



data to the data in the Postal Service’s Address Management System (AMS).25 We
discussed our observations and conclusions with management on December 16, 2008,
and included their comments where appropriate.

PRIOR AUDIT COVERAGE

The report titled Improvements Possible in Public, IRS, and State Oversight of Charities,
GAO-02-526, April 2002, resulted from work conducted at the request of the U.S.
Senate Committee on Finance. The report focused on the adequacy of publicly
reported IRS Form 990, Return of Organization Exempt From Income Tax data on
charity spending in facilitating public oversight of charities; IRS oversight of charities;
and IRS data sharing with state agencies that oversee charities. The GAO made the
following four recommendations to the IRS.

     (1) Obtain reliable data on compliance issues for the full charity community.
     (2) Develop result-oriented goals, strategies, and measures to gauge progress in
         accomplishing those goals when overseeing the charity community.
     (3) Develop, in consultation with state charity officials, a procedure to regularly share
         IRS data with states as allowed by federal law.
     (4) In concert with the Department of Treasury and state charity officials, identify the
         specific types of data that may be useful for enhancing state charity officials’
         oversight of charities, the appropriate mechanisms for sharing the data, the
         resources needed, and the types and levels of protections to be provided to
         prevent improper disclosure and misuse.




25
   The AMS is the master addressing database the Postal Service uses to capture, correct, and complete address
information to enhance the efficiency of mail processing and delivery through automation. AMS contains information
such as ZIP Codes and place names, Postal Service facility information, carrier routes, address ranges, and
individual delivery addresses. AMS is the source for all address data and products used by mailers and internal
Postal Service mail processing operations.




                                                        14
Cooperative Mail Rule Exception                                                                     MS-AR-09-004



                                APPENDIX B: DETAILED ANALYSIS

Method Needed to Monitor the Exception to Identify Abuses

The Postal Service does not have a process in place to monitor the CMR exception to
identify abuses. Consumer Affairs, Mailing Standards, and Postal Inspection Service
management officials said that because they have not received any complaints about
the CMR exception they are not sure whether there is a problem. While the Postal
Service has not received any complaints, we believe that management needs to
implement actions to ensure there are no abuses of the CMR exception.

When the Postal Service proposed the CMR exception in May 2003, it received
comments from several associations26 representing NPOs and FPOs encouraging the
inclusion of language to safeguard NPOs and prevent FPOs from using the new rules to
take advantage of inexperienced or unsophisticated NPOs. The requested safeguards
included the following.

     •   Excluding the ineligible participant, the FPO, from serving as a key member of
         the NPO’s board.
     •   Requiring board members or NPO officers to sign written contracts when
         obtaining the services of a FPO.
     •   Requiring the NPO to control solicited funds.
     •   Ensuring the NPO has sole ownership rights to the fundraising package
         developed at its expense.
     •   Prohibiting the FPO from extending credit to, and creating continued employment
         situations for, NPOs.
     •   Requiring certification on a PS Form 3602, Postage Statement, that the mailing
         satisfies all restrictions.

In the final ruling, the Postal Service stated that concerns can be addressed through
alternatives to regulation such as education or training of NPOs. Furthermore, the
Postal Service stated the new rule will not dictate the terms of the relationship between
the NPO and FPO; but will increase the options available to the parties by allowing
NPOs to consider retaining the services of a FPO.

The Postal Service included language in the final ruling stating the FPO must provide
the NPO with a list of the individuals who gave donations, including contact information
and the amount donated. If the NPO does not want the donor list, a written waiver is
required. The Postal Service indicated it would assist in educating NPOs and its
Consumer Advocate would monitor the CMR exception for abuses. The Postal Service



26
  Some of the organizations that were against the proposal included the Alliance of Nonprofit Mailers (ANM), AFP,
Independent Sector, and the DMA.




                                                        15
Cooperative Mail Rule Exception                                                                         MS-AR-09-004



also stated that if abuses occurred, it would revisit the exception and consider further
rulemaking or other appropriate administrative measures. 27

In the January 2004 issue of the Memo to Mailers, the DMA Nonprofit Federation,
PostCom, and the DMA, in cooperation with the Postal Service, published an article
titled New Standards for Nonprofit Mailers.28 The article discussed the change in the
CMR that would allow authorized NPOs seeking monetary donations to share risk,
profits, or management control with FPOs and use Nonprofit Standard Mail rates. The
same groups also published a pamphlet titled Prudent Contracting with A Professional
Fundraiser outlining changes in the cooperative mail regulation and offered warnings
and advice to NPOs seeking to negotiate the services of FPOs. 29

The Postal Service has 80 Consumer Affairs Managers located throughout the country.
According to the Consumer Affairs Standard Operating Procedures for Complaint
Handling Process,30 complaints can be made via the Internet, congressional inquiry,
telephone call, walk-in, or correspondence. Employees enter all complaints that require
research into the Customer Activity Response and Exchange (CARE) system within 24
hours. The Postal Service uses CARE to retrieve historical data and provide reports on
all customer issues received by Consumer Affairs. Complaints not handled at the postal
facility or district levels can be elevated to the area and headquarters levels.31

Consumer Affairs management stated they have not received any complaints regarding
the CMR exception and if they had, they would have handled the complaints like all
others. Specifically, issues are evaluated and answered by the appropriate functional
area within the Postal Service. For example, Mailing Standards would handle CMR
exception complaints because they are the subject matter experts. Officials also stated
if the CMR exception complaint was related to fraud, it would be referred to the Postal
Inspection Service.

The Postal Inspection Service’s Revenue Protection32 program would handle CMR
exception investigations and its Mail Fraud program would handle charity fraud.33
Complaints can come to the Postal Inspection Service from Consumer Affairs, Postal
Service business mailers, or customers who have had a monetary loss. Tips or

27
   Federal Register, Volume 68, Number 196, Final Rule: Eligibility Requirements for Certain Nonprofit Standard Mail
Matter, October 9, 2003, Rules & Regulations Regarding CMR.
28
   Memo to Mailers, published by the U.S. Postal Service, Volume 39, Number 1, January 2004.
29
   The pamphlet also states the change to the CMR will remove restraints on so-called “risk-sharing” arrangements,
such as percentage compensation arrangements or outcome guarantees.
30
   U.S. Postal Service, Consumer Affairs Standard Operating Procedures Complaint Handling Process, January
2007.
31
   Because the OIG is currently conducting an audit of the Consumer Advocate complaint handling process, we did
not determine the effectiveness of the process as part of this audit.
32
   Revenue Protection investigations include eligibility fraud, which includes a mailing that does not meet
requirements for preferential rates such as Periodicals or Nonprofit Mail.
33
   A type of mail fraud scheme defined as complaints from consumers who believe they have been solicited by or
given donations to a disreputable charitable organization. Charity fraud may include solicitation purporting to be for a
worthy cause that is, in fact, for private personal gain. Some subjects of charity fraud complaints may claim to have a
nonprofit 501(c)(3) status when they do not.




                                                          16
Cooperative Mail Rule Exception                                                                  MS-AR-09-004



complaints about abuse can also originate from field offices, the fraud complaint
system, a telephone call, or letter. Postal Inspection Service management stated that,
based on their data and investigations, there have been no issues regarding the CMR
exception. The Postal Inspection Service has investigated three cases involving a
violation of the CMR; however, these cases occurred prior to implementation of the
CMR exception in November 2003. The mailings in all of the cases were
inappropriately mailed at Nonprofit Standard Mail rates.

There is currently a perception that the CMR exception allows FPOs to take advantage
of NPOs and donors when conducting direct mail solicitations. In addition to the
Congressional hearings,34 we reviewed a situation in which an NPO conducted direct
mail fundraising campaigns and used the services of a FPO, but received only a small
percentage of the money raised. Specifically, a large well-known NPO collected gross
donations of $46,155,104 between 1999 and 2003; however, the direct mail FPO kept
$43,344,899 of the donations raised. The extent of this type of situation is unknown and
the Postal Service can assist in the effort to confirm whether it exists on a broader
scale. Consumer Affairs officials said that because they have never received a CMR
exception complaint outside of the current complaint process, they are not sure of what
type of process to put in place. However, they are open to working with other Postal
Service stakeholders (such as Mailing Standards and Business Mail Acceptance) to
determine whether it makes sense to develop something different from the current
complaint handling process.

The OIG encourages Consumer Affairs, Mailing Standards, Business Mail Acceptance,
and Postal Inspection Service officials to work together to determine the most effective
means to monitor the CMR exception to identify abuses.

Acceptance Procedures for Exception Mailings Need Strengthening

Thirteen out of 18 mail acceptance employees we interviewed were not knowledgeable
of the CMR exception, and 1535 stated they had not received training on the CMR
exception. In addition, headquarters mail acceptance management said that when they
implemented the CMR exception in November 2003, they did not receive direction from
Consumer Affairs on the type of training to provide to mail acceptance clerks.
Consequently, without adequate training, mail acceptance employees cannot provide
NPOs with information or assist with identifying abuses of the CMR exception.
Furthermore, mail acceptance employees cannot evaluate the mailings to determine
mailer compliance with the requirements to receive the Nonprofit rate.




34
   The House Oversight and Government Reform Committee held hearings on December 13, 2007, and January 17,
2008. The House Subcommittee on Federal Workforce, Postal Service, and the District of Columbia held a hearing
on April 24, 2008.
35
   Two of the mail acceptance clerks who said they were knowledgeable about the CMR exception said they did not
receive training.




                                                       17
Cooperative Mail Rule Exception                                                                       MS-AR-09-004



According to Publication 417, Nonprofit Standard Mail Eligibility, nonprofit mailers using
the CMR exception remain subject to all other eligibility standards for Nonprofit
Standard Mail. In order to determine whether these requirements and standards are
met, Postal Service mail acceptance employees must verify the CMR exception mailing
to:

       o Ensure it solicits monetary donations for the authorized nonprofit mailer.

       o Ensure it does not promote or otherwise facilitate the sale or lease of any goods
         or services.

       o Determine whether the nonprofit organization waived its rights to the donor list.

Mail acceptance clerks must also verify that the NPO is authorized to mail at Nonprofit
Standard Mail rates. Postal facilities with PostalOne! access are able to verify an
NPO’s authorization to mail at Nonprofit rates electronically. Postal Service facilities
without PostalOne! access must review a hardcopy list of authorized nonprofit mailers.

OIG auditors also conducted interviews at 18 randomly selected postal facilities during
previously planned work in support of the FY 2008 financial statements audits. Of the
18 mail acceptance clerks interviewed, 13 were not familiar with the exception. Most of
the mail acceptance employees said they were not familiar with the CMR exception
because they did not receive training. See Appendix C for the results at each postal
facility.

Business Mail Acceptance management at Postal Service Headquarters stated they
were not surprised that mail acceptance clerks were unaware of the CMR exception.
One official said when the ruling came out in October 2003, the only notification was a
Postal Bulletin36 article which announced the Postal Service made a very small revision
to the DMM that addressed the CMR exception. However, Mailing Standards required
nothing additional to be presented by a mailer to support use of the CMR exception or
of business mail acceptance to verify the support for the exception.

Business mail acceptance clerks are the first line of defense for ensuring that
unauthorized users do not abuse Nonprofit Standard Mail rates. Postal Service mail
acceptance employees must know the CMR exception to ensure that mail is accepted
according to policies and procedures and that the rate paid for the mailing is
appropriate. Enhancing employee knowledge of the CMR exception will assist in this
effort.




36
     Postal Bulletin, 22114, DMM Revision: Nonprofit Standard Mail – Cooperative Mail, October 30, 2003.




                                                          18
Cooperative Mail Rule Exception                                                                       MS-AR-09-004



No Data on Exception Usage

The Postal Service does not currently collect data from mailers pertaining to the use of
the CMR exception, such as the names of NPOs and FPOs using the exception, and
whether an NPO waived its right to the donor list. Business Mail Acceptance
management stated they did not receive instructions from Consumer Affairs to collect
information on CMR exception usage. Because the Postal Service does not collect or
maintain data pertaining to the CMR exception, management does not have information
to determine usage or make decisions regarding the impact of the exception on the
nonprofit sector.

The Postal Service does not require mailers to provide information regarding CMR
exception mailings. The OIG conducted a survey of 5,004 authorized nonprofit mailers
to ascertain that mailers use the CMR exception. Of the 5,004 surveys mailed, we
received 670 responses.37 Our overall survey response rate of 13.4 percent does not
provide enough information to draw conclusions about CMR exception usage. The
majority of the respondents were religious and educational organizations and these
types of organizations do not typically use direct mail as a primary fundraiser. None of
the authorized NPOs that responded to the survey used the CMR exception.38 Table 3
provides the response rate by type of nonprofit organization and chart 4 depicts the
number of nonprofit mailers that responded to our survey.

                   Table 3. Response Rate by Type of Nonprofit Organization
    Type of Nonprofit               Number of Surveys                   Number of                 Survey Response
       Organization                     Mailed                          Responses                  Rate (Percent)
Religious                                2,105                             327                           16
Educational                              1,471                             159                           11
Philanthropic                             868                               53                            6
Veterans                                  124                               20                           16
Fraternal                                 246                               38                           15
Combined: Scientific,                     190                               21                           11
Agricultural, Labor and
Qualified Political
Committee
Did Not Specify39                               --                            52                           --
Totals                                        5,004                          670                    13.4 - Average
Source: OIG Nonprofit Mailer Survey Results




37
   An additional 665 surveys (13.4 percent) were returned Undeliverable as Addressed, which indicates that the
Postal Service data on these charities may not be very accurate or up-to-date.
38
   We provided NPOs with a definition of the CMR exception to assist with responding to the questions.
39
   When these authorized nonprofit mailers responded to the survey, they did not indicate the type of nonprofit
organization they represented.




                                                         19
 Cooperativ
          ve Mail Rule Exception
                       E                                                                              MS-AR-0
                                                                                                            09-004



                       Chart
                       C     4. Autho
                                    orized Nonpro
                                                ofit Mailer Resp
                                                               ponse to OIG Survey
                                                                            S

                                                                                    Did Not Respond
                                                                                    73.3%




                                                                  3669
                 No Res
                      sponse                                                        Responded
                                                                                    13.4%
                   Resp
                      ponded             670

                Returne
                      ed UAA             665

                               0     1000       2000
                                                   0   3000   40
                                                               000       5000       UAA 13.3%




                               Sourcce: OIG Nonp
                                               profit Mailer Survey
                                                             S      Resultts

 We aske ed authorized NPOs about
                               a     their use
                                            u of direcct mail, hirin
                                                                   ng a FPO, and
                                                                              a the CM MR
 exceptioon since 2004. Of the 670 respon   ndents, 181
                                                      1 used direcct mail to ra
                                                                              aise moneyy and
 35 used the servicees of a FPOO but none of the authorized NPO    Os used thee CMR
 exceptioon. Many mailers
                   m        state
                                ed they do not use direct mail campaigns to  o raise money
 or hire FPOs.
         F      Tablle 4 providees details of
                                           o the responses.

  Table 4. Use of Direct Mail and the CMR
                                      C   Excep
                                              ption Among Nonpro
                                                               ofit Organizzations
                                                                                Hired a For-
                                                                                H
  Type ofo Nonprofitt         Num
                                mber of                Used Dirrect                Profit             Used the
                                                                                                           t CMR
     Orga anization          Respo
                                 ondents                  Mail                  Organization
                                                                                           n           Exception
 Religiouss                      3
                                 327                       64                         8                     0
 Educatioonal                    1
                                 159                       56                        13                     0
 Philanthrropic                   5
                                  53                       26                         8                     0
 Veteranss                        2
                                  20                        1                         0                     0
 Fraternall                       3
                                  38                        5                         1                     0
 Combine ed: Scientific
                      c,          2
                                  21                        9                         1                     0
 Agricultural, Labor
 and Qualified Politica
                      al
 Committe ee
 Did Not Specify
         S                          52
                                    5                        20                      4                       0
 Totals                            6
                                   670                      181                     35                       0
Source: OIIG Nonprofit Mailer
                       M      Surveyy Results

 We aske  ed NPOs what
                    w      impact the CMR exception
                                            e          has had on their
                                                                   t    fundraaising effortts
 since it was
          w implem  mented in November
                                N           2
                                            2003.  Of the 623 that responded to the
 question           d it has had a positive impact while 596 indiccated it hass had no impact
         n, 22 stated
 on their fundraising
                    g efforts. Five indicateed the CMR R exception had a nega  ative impacct on
         ndraising ab
 their fun          bilities. Tab
                                ble 5 highlig
                                            ghts the ressponses.




                                                       20
Cooperative Mail Rule Exception                                                                            MS-AR-09-004



                    Table 5. Impact on Fundraising of the CMR Exception
Type of Nonprofit             Number of
   Organization              Respondents             Positive Impact           No Impact          Negative Impact
Religious                        307                        11                    296                    0
Educational                      150                         2                    147                    1
Philanthropic                     51                         4                     44                    3
Veterans                          20                         1                     19                    0
Fraternal                         33                         2                     30                    1
Combined:                         20                         0                     20                    0
Scientific,
Agricultural, Labor
and Qualified
Political Committee
Did Not Specify                      42                        2                     40                     0
Totals                              623                       22                    596                     5
Source: OIG Nonprofit Mailer Survey Results

We asked NPOs to indicate the impact on their fundraising ability if the Postal Service
modified the CMR exception by adding language, such as ensuring the NPO is in
control of the money raised or providing guidance regarding key employees of the NPO
and FPO.40 Of the 616 NPOs that responded to the question, 48 stated that modifying
the CMR exception would have a positive impact, 561 stated it would have no impact,
and seven stated it would have a negative impact. Table 6 provides the details of the
responses.

          Table 6. Impact on Fundraising if the CMR Exception was Modified
Type of Nonprofit             Number of
   Organization              Respondents             Positive Impact           No Impact          Negative Impact
Religious                        302                        16                    284                    2
Educational                      150                        11                    138                    1
Philanthropic                     51                         9                     39                    3
Veterans                          20                         2                     18                    0
Fraternal                         34                         1                     32                    1
Combined:                         21                         4                     17                    0
Scientific,
Agricultural, Labor
and Qualified
Political Committee
Did Not Specify                      38                        5                     33                     0
Totals                              616                       48                    561                     7
Source: OIG Nonprofit Mailer Survey Results

We asked NPOs to indicate the impact on their fundraising ability if the Postal Service
removed the CMR exception and did not allow NPOs to share the cost, risk or benefit

40
   Associations representing NPOs and FPOs wanted the Postal Service to add language such as no officer, director,
principal, or fiduciary of any FPO or corporate affiliate thereof, or any close relative of any such individual, serves the
nonprofit organization as officer, director, or key employee.




                                                            21
Cooperative Mail Rule Exception                                                          MS-AR-09-004



with a FPO. Of the 622 NPOs that responded to the question, 14 stated it would have a
positive impact, 563 stated it would have no impact, and 45 stated it would have a
negative impact. Table 7 provides details of the responses.

                        Table 7. Impact if the CMR Exception was Removed
Type of Nonprofit             Number of
   Organization              Respondents          Positive Impact          No Impact   Negative Impact
Religious                        307                     7                    284            16
Educational                      149                     0                    139            10
Philanthropic                     51                     3                     38            10
Veterans                          20                     0                     18             2
Fraternal                         34                     4                     29             1
Combined:                         21                     0                     20             1
Scientific,
Agricultural, Labor
and Qualified
Political Committee
Did Not Specify                     40                        0                  35           5
Totals                             622                       14                 563          45
Source: OIG Nonprofit Mailer Survey Results

A few of the ADRFCO and the AFP direct mail agency members participated in an OIG
e-mail survey regarding their clients’ use of the CMR exception. Of the 17 direct mail
agencies surveyed, 11 responded and none of them used the CMR exception with their
clients’ fundraising campaigns. Reasons included not being in a position to share in the
cost, risk or benefit of a mailing with a client or believing the CMR exception encourages
fraud and abuse and should be removed. Ten of the 11 direct mail FPOs that
responded to the question stated their ability to assist NPOs with fundraising would not
be affected if the Postal Service removed or modified the CMR exception. One FPO
said that removing or modifying the CMR exception would have a positive impact on
their ability to assist NPOs with fundraising because entities that are not following best
practices may not be able to continue what they are doing. This FPO also believes
donors are distracted from giving to more effective NPOs.

In order to generate data about users of the CMR exception, the Postal Service must
first require mailers to provide the information. Business Mail Acceptance management
believes the Postal Service can add the information as a required field on the Postage
Statement for Nonprofit Standard Mail41 and possibly as a field in the PostalOne!
system in 2010. Once the Postal Service collects CMR exception data, it can use the
data to assist management with identifying NPOs and FPOs using the exception,
thereby assisting with making informed decisions about its impact.




41
     PS Form 3602-N1, Postage Statement – Nonprofit Standard Mail, June 2007.




                                                        22
Cooperative Mail Rule Exception                                                                     MS-AR-09-004



Clarify Existing Exception Policies

The CMR exception policies do not define cost, risk, and benefit or spell out the types of
permissible relationships that an NPO can participate in with a FPO when fundraising.
A Mailing Standards official said the language in the CMR exception policies is vague
because, at the time, the Postal Service did not want to be perceived as exceeding its
authority over the relationship between an NPO and FPO. However, this official does
believe it makes sense to clarify existing CMR exception policies. Clarification is critical
to ensuring mailers know what is permitted and prohibited and to assist in preventing
abuse in this area. Most of the external stakeholders42 we interviewed believe the CMR
exception, as currently written, allows fraud and abuse by FPOs assisting NPOs.
Additionally, insufficient clarity in the policy could result in a loss of revenue to the
Postal Service, if mailers are inappropriately mailing at the Nonprofit rate.

CMR exception policies outlined in the DMM, Chapter 703,43 and in Publication 417,
Chapter 5,44 do not specify that an NPO can share the cost, risk or benefit of a
solicitation mailing with a FPO. The DMM CMR exception policy is more ambiguous
than Publication 417’s and does not specify that an NPO can partner with a FPO and
share the cost, risk or benefit of a solicitation mailing. The policy only states there is an
exception to the CMR. Although Publication 417 does state that cost, risk or benefit can
be shared, it does not specify the kinds of FPOs the NPO can partner with to mail
solicitations. Table 8 provides the policies for the CMR and the CMR exception and
also lists what is missing from each policy.

                          Table 8. CMR Exception Policy Analysis
                  DMM 703                               Publication 417
A cooperative mailing may be made at the             A cooperative mailing is a mailing produced by an authorized
Nonprofit Standard Mail rates only when each         organization that “cooperates” with one or more organizations to
of the cooperating organizations is authorized       share the cost, risk or benefit of the mailing. Organizations may
to mail at the Nonprofit Standard Mail rates at      not enter cooperative mailings at Nonprofit Standard Mail rates
the post office where the mailing is deposited.      unless the Postal Service has authorized all the cooperating
                                                     organizations to mail at these rates.
Exception: This standard does not apply to           The cooperative mail rule generally applies to all mail entered as
mailings by an organization authorized to mail       Nonprofit Standard Mail; however, effective November 13, 2003,
at Nonprofit Standard Mail rates soliciting          the Postal Service adopted a limited exception to this policy for
monetary donations to the authorized mailer          certain fundraising mail to assist nonprofit organizations in
and not promoting or otherwise facilitating the      obtaining the monetary funding needed to support their
sale or lease of any goods or services.              programs.
This exception applies only where the                Mailings within the exception are not subject to the cooperative
organization authorized to mail at Nonprofit         mail rule and are not denied entry at nonprofit rates under that
Standard Mail rates is given a list of each          provision, but remain subject to all other eligibility standards for
donor and their contact information and              Nonprofit Standard Mail.
donation amount or waives in writing receipt of

42
   Stakeholders included associations representing NPOs and FPOs, state charity regulators, consumer protection
organizations, and direct mail companies.
43
   DMM, Section 703, Nonprofit Standard Mail & Other Unique Eligibility, Subsection 1.6.3, Cooperative Mailings,
March 13, 2008.
44
   Publication 417, Nonprofit Standard Mail Eligibility, Chapter 5, Cooperative Mailings, March 2006.




                                                        23
Cooperative Mail Rule Exception                                                             MS-AR-09-004



                            Table 8. CMR Exception Policy Analysis
                    DMM 703                               Publication 417
this list.
                                                Nonprofit Standard Mail is not subject to the cooperative mail
                                                rule if it meets the following criteria:
                                                o It is mailed on or after November 13, 2003.
                                                o It solicits monetary donations for the authorized nonprofit
                                                     mailer.
                                                o It does not promote or otherwise facilitate the sale or lease
                                                     of any goods or service.
                                                The authorized nonprofit mailer is given a list of each donor and
                                                their contact information and donation amount or waives in
                                                writing receipt of this list.
                                        What is Missing from the Policy
o    Does not specifically mention FPOs         o Does not specifically mention FPOs
o    No definitions of cost, risk or benefit    o No definitions of cost, risk or benefit
o    No definition of FPOs                      o No definition of FPOs
o    Does not state terms such as sharing
     cost, risk or benefit

Postal Service Mailing Standards management stated that they educate nonprofit
mailers about the CMR exception at the National Postal Forums. The presentation
used to educate NPOs addresses nonprofit mail eligibility and content restrictions and
discusses the CMR and the CMR exception. In our survey, we asked NPOs how their
organizations learned about the CMR exception and 109 NPOs stated they were not
aware of the CMR exception. Table 9 depicts the NPO by type of organization that
indicated they were not aware of the CMR exception.

                Table 9. Nonprofit Organizations’ CMR Exception Knowledge
                                                                 Number of Respondents
                 Type of Nonprofit            Number of          that Did Not Know About
                    Organization             Respondents            the CMR Exception
              Religious                          327                        52
              Educational                        159                        25
              Philanthropic                       53                         8
              Veterans                            20                         2
              Fraternal                           38                         5
              Combined: Scientific,               21                         2
              Agricultural, Labor and
              Qualified Political
              Committee
              Did Not Specify                       52                         15
              Totals                               670                        109
             Source: OIG Nonprofit Mailer Survey Results

Some external stakeholders believe the CMR exception as currently written allows fraud
and abuse by FPOs assisting NPOs. Stakeholders within the nonprofit sector state that
FPO abuses of NPOs include ownership of acquired donor lists, guaranteed results
(such as a net dollar amount), ownership of the mailpiece or package, control of



                                                     24
Cooperative Mail Rule Exception                                                                     MS-AR-09-004



donations, compensation by percentage of gross or net donations, and FPO extension
of loans or cash advances to NPOs. These stakeholders believe the Postal Service
should modify the language in the CMR exception to prevent these abuses from
occurring.

The Postal Service should clarify the CMR exception policies and procedures and can
consider using terminology and definitions that already exist in the nonprofit sector. For
example, the IRS defines professional fundraising services as

     services performed for the organization requiring the exercise of
     professional judgment or discretion consisting of planning, management, the
     preparation of materials (e.g., direct mail solicitation packages), the
     provision of advice and consulting regarding solicitation of contributions, and
     direct solicitation of contributions. However, professional fundraising does
     not include purely ministerial tasks, such as printing, mailing services, or
     receiving and depositing contributions to a charity, such as the services
     provided by a bank or caging service.45

Some state charity regulators also have definitions of commercial/ professional
solicitors and commercial/professional fundraising counsels.46

Eligible NPOs may be limiting their ability to raise money for their programs because the
CMR exception policy is not clear. In addition, if the CMR exception policy does allow
FPOs to take advantage of NPOs, the Postal Service should address this concern as
well.

Transparency and Charity Regulation

The Postal Service could assist federal and state charity regulators, and charity
watchdog organizations with efforts to promote transparency in the nonprofit sector by
providing educational information on the CMR exception and its use as well as links to
consumer protection and charity regulation information on the Postal Service’s website.
For example, although the Postal Service has undertaken some educational efforts,
information on the website about these efforts is limited. In January 2004 the DMA
Nonprofit Federation, PostCom, and DMA, in cooperation with the Postal Service,
published an article titled New Standards for Nonprofit Mailers,47 discussed earlier in
this report; however, it is not currently available on the website. These and other
articles and links to relevant sites could assist mailers and NPOs in making appropriate
use of this exception by informing them of their rights and responsibilities.



45
   IRS, 2008 Instructions for Form 990, Glossary.
46
   Washington state uses the terms “commercial fundraiser” and “fundraising counsel” while South Carolina and
Pennsylvania use the terms “professional solicitor” and “professional fundraising counsel.”
47
   Memo to Mailers, U.S. Postal Service, Volume 39, Number 1, January 2004.




                                                        25
Cooperative Mail Rule Exception                                                MS-AR-09-004



While some stakeholders have suggested that the Postal Service could administer a
national database of charities, most of the stakeholders we interviewed believed such a
database is not a part of the Postal Service’s jurisdiction or mission. Also, this database
would duplicate what is currently available through organizations that provide similar
information to consumers.

The mission of the Postal Service is to provide trusted, affordable, universal service.
Although the Postal Service maintains a database of NPOs that are authorized to mail
at Nonprofit Standard Mail rates, a national database of charities would be a substantial
undertaking. However, the Postal Service can assist consumers, members of the
nonprofit sector, IRS, state charity regulators, and consumer protection organizations
with efforts to promote transparency in the charity sector by providing additional
information and links to consumer protection and charity regulation on the their website.
Postal Service USPS.com management agrees with providing additional information
about the CMR exception on the website to assist nonprofit mailers; however, these
officials do not recommend adding links to websites (such as charity watchdog
organizations) because consumers do not visit USPS.com to obtain this information and
may also believe the Postal Service is endorsing these sites.

Over the past few years, the nonprofit sector and federal and state agencies have
undertaken efforts to promote transparency, governance, accountability, and ethics
within the nonprofit community. Appendix E of our report provides information regarding
current regulation of and issues regarding the nonprofit sector.




                                            26
Cooperative Mail Rule Exception                                      MS-AR-09-004



           APPENDIX C: MAIL ACCEPTANCE CLERK SURVEY SUMMARY

                    Table 10. Mail Acceptance Clerk Survey Results
                                  Mail Acceptance Clerk      Mail Acceptance Clerk
Postal Service Facility Name       Knew About the CMR      Received Training on the
         and Location                   Exception               CMR Exception
1. xxxxxx xxxxxxxx xxxx                     Yes                       Yes
    xxxxx xxxx (xxxx)
2. Xxxxxxxxxx Xxxxxx Xxxx                    No                        No
3. Xxxxxxx XXXX                              No                        No
4. Xxxxx XXXX                                No                        No
5. Xxxxx Xxxx Xxxxxx Xxxx                    No                        No
6. Xxxxxx Xxxxx Xxxxxx Xxxx                  No                        No
7. Xxxxx Xxxxxx                              No                        No
8. Xxxxxxxx XXXX                            Yes                        No
9. Xxxxxxxx Xxxxxx Xxxx                      No                        No
10. Xxxxxxxxxxx Xxxxxx Xxxx                  No                        No
11. Xxxxxxxxx XXXX                           No                        No
12. Xxxxxxxxxx XXXX                          No                        No
13. Xxxxxx XXXX                              No                        No
14. Xx. Xxxxx XXXX                          Yes                       Yes
15. Xxxxxx XXXX                              No                        No
16. Xxxxxxxx XXX                            Yes                       Yes
17. Xxxxxxxx Xxxx                            No                        No
18. Xxxxxxxxxx (XX) XXXX                    Yes                        No
                                    Yes = 5 and No = 13       Yes = 3 and No = 15




                                       27
Cooperative Mail Rule Exception                                                                     MS-AR-09-004



     APPENDIX D: NONPROFIT MAILER SURVEY SAMPLING METHODOLOGY

To perform this study, we sent out surveys to NPO authorized to mail at Nonprofit
Standard Mail rates stratified by the type of nonprofit.48 We divided the strata into the
five largest nonprofit types and added a sixth stratum to include the remaining types.
Using this approach we were able to optimize the sample sizes associated with each of
the strata based on the estimated variances within each. Specifically, we used the
RAT-STATS 2007 v.2 sample size determination module for stratified sampling. Table
11 outlines the number of surveys mailed to each nonprofit organization type.

          Table 11. Authorized Nonprofit Mailer Sample by Organization Type
                                                                                                Number of
                        Type of Nonprofit Organization                                        Surveys Mailed
Religious                                                                                         2,105
Educational                                                                                       1,471
Philanthropic                                                                                      868
Veterans                                                                                           124
Fraternal                                                                                          246
Combined: Scientific, Agricultural, Labor and Qualified Political Committee                        190
Totals                                                                                            5,004

The executive director of the ANM co-signed our survey. We mailed the survey to a
sample of 5,004 authorized nonprofit mailers on August 5, 2008, and also offered the
opportunity to complete the survey online. We gave authorized nonprofit mailers until
August 25, 2008, to respond to the survey.




48
   We retrieved authorized nonprofit mailer data from OCRA as of June 8, 2008, prior to the migration of OCRA data
into PostalOne!




                                                        28
Cooperative Mail Rule Exception                                                                     MS-AR-09-004



           APPENDIX E: CURRENT REGULATION OF THE NONPROFIT SECTOR

This appendix discusses current regulation of and issues regarding the nonprofit sector.
We begin by discussing the Postal Service’s role and follow with the requirements of the
PRC. We then discuss federal, state, and charity watchdog organizations followed by a
discussion of ethics and good business practices for NPOs. We conclude with an
analysis of the regulation of FPOs and provide reasons why the Postal Service should
not administer a national database of charities.

Postal Service

On April 24, 2008, the Postmaster General (PMG) testified before the Subcommittee on
the Federal Workforce, the Postal Service, and the District of Columbia. The PMG
stated the Postal Service can and must play an important role in maintaining an
environment that supports personal philanthropy by helping to raise awareness of the
issue regarding significant financial advantage for FPOs and not NPOs. The PMG
stated the goal of the CMR exception was to avoid conflicts between individual state
laws governing the operation of charitable organizations and mailing rules that apply to
all nonprofit mailers, regardless of location.

The Postal Service provides policy outlining the extent to which an NPO is qualified to
mail at reduced rates. The Postal Service also governs the acceptance of mail from
authorized NPOs interested in using Nonprofit Standard Mail rates. NPOs can access
USPS.com to learn about Nonprofit Standard Mail eligibility requirements, the
application process, and nonprofit mail preparation.

In the business section of the website, there are four frequently asked questions
regarding nonprofit mail, one of them being “Using Professional Fundraising without
Losing Nonprofit Status.” The answer states

         the Postal Service will allow nonprofits to use professional fundraising
         organizations without jeopardizing their eligibility to mail Nonprofit
         Standard Mail. This decision will allow nonprofits to increase the
         potential pool of charitable donors when the economy is weak and
         public resources are being diverted.

The Postal Service is also a resource to the general public and USPS.com is one of the
most frequently visited government sites, with 386 million visits in 2007 – averaging one
million visitors each day.49 The Postal Service makes the U.S. Postal Inspection
Service Guide to Preventing Mail Fraud50 available on USPS.com. This publication
provides guidance to consumers on preventing the use of the mail to defraud customers
and to help consumers and businesses identify different types of mail fraud. The
publication covers several types of mail fraud schemes including sweepstakes and free
49
     Postal Service Facts 2008, U.S. Postal Service.
50
     Publication 300-A, U.S. Postal Inspection Service Guide to Preventing Mail Fraud, June 2007.




                                                           29
Cooperative Mail Rule Exception                                                                      MS-AR-09-004



prizes, credit repair and credit card schemes, and charity fraud. The charity fraud
information includes advice such as “give to charities you know, check out the ones you
never heard of and be suspicious of charities that accept cash only.” The Postal
Inspection Service’s website (postalinspectors.uspis.gov) also provides information
about charity fraud as well as a link to the Better Business Bureau (BBB) Wise Giving
Alliance website for consumers interested in learning about organizations with which
they are unfamiliar.

Postal Regulatory Commission

The Postal Accountability and Enhancement Act of 2006 (Postal Act of 2006), Section
711, Provisions Relating to Cooperative Mailings, requires the PRC to conduct a study
to examine whether the DMM contains adequate safeguards to protect against abuses
of rates for nonprofit mail and deception of consumers. The PRC is required to report
the results of the examination to the Postal Service along with recommendations
deemed appropriate.51

The PRC issued a public inquiry into the CMR exception on April 22, 2008, to facilitate
compliance with this provision.52 Regarding abuses of Nonprofit Standard Mail rates,
the PRC requested comments regarding the extent of abusive fundraising practices,
education efforts by the Postal Service and the nonprofit sector, as well as available
data on the use of the CMR exception. Regarding deception of consumers, the PRC
requested comments about state laws on charitable fundraising, Postal Service and
state consumer education efforts, and reported cases of donor deception. The Public
Inquiry closed in July 2008 and the PRC received five comments and three replies.

On February 13, 2009, the PRC issued its report on the results of the public inquiry,
Report of the Postal Regulatory Commission on the Fundraising Exception to the
Cooperative Mail Rule. The report includes five recommendations:

     (1) Improve Oversight of Use of the Fundraising Exception to Enhance [Postal Act of
         2006] Goals of Accountability and Transparency in the Administration of this
         Regulation.

     (2) Develop a Coordinated Internal Plan that Builds on Existing In-house Training
         and Education, with Added Emphasis on both the Cooperative Mail Rule and the
         Fundraising Exception.

     (3) Develop a Comprehensive External Communications Plan that Builds on
         Concerns of the Nonprofit Mailing Community, the Professional Fundraising
         Community, and the Donor Community and, as Part of This, Consider Whether


51
   If the Postal Service fails to act on the recommendations of the Commission, the Commission may take action it
determines necessary to prevent abuse of rates and deception of consumers.
52
   Docket Number PI2008-4, Inquiry into the CMR Exception, April 22, 2008.




                                                         30
Cooperative Mail Rule Exception                                                                   MS-AR-09-004



        Editorial Improvements in the Wording of the Cooperative Mail Rule Would
        Enhance a Lay Audience’s Understanding of these Regulations.

     (4) Consider Whether Ties to Other Authorities and Agencies Should be Formalized
         and, if This is Warranted, Periodically Provide a Brief Report on the Activities of
         This Group Via an Established Reporting Mechanism.

     (5) Consider Whether Persistent Concerns About Undue Influence or Control Over
         Nonprofit Organizations Warrant Revisiting a Decision in the 2003 Rulemaking,
         to Exclude from the Fundraising Exception Any Terms that Would Address These
         Matters, and Whether Substantive Revisions Warrant Developing a New
         Legislative Proposal.

House Oversight and Government Reform Committee

The House Oversight and Government Reform Committee held hearings on
December 13, 2007, and January 17, 2008, on fundraising; and the House
Subcommittee on Federal Workforce, Postal Service, and the District of Columbia held
a hearing on April 24, 2008. Committee members expressed concern that some
charities are conducting high volume mail and telemarketing campaigns that enrich the
organizations and fundraisers without providing meaningful assistance to veterans.
Chairman Henry A. Waxman stated that although hundreds of millions of dollars are
donated to charities, most of the funds never reach veterans or their families but are
instead wasted on bloated overhead costs and self-enrichment.

The hearings raised awareness of abuses by some FPOs that are using the CMR
exception to conduct direct-mail fundraising at Nonprofit Standard Mail rates and
keeping a large portion of the money raised. Some committee members believe the
Postal Service’s CMR exception “fostered” an opportunity for these types of abuses.
The hearings centered on veterans’ charities that have allegedly suffered from this
activity.

The PMG, Chairman of the PRC, NPOs, FPOs, state charity regulators, and charity
watchdog organizations testified at the hearings.

Senate Committee on Finance

The Senate Committee on Finance made two requests and three reports were issued
as a result of those requests. In the first report, issued in April 2002, the GAO reviewed
oversight of charities because of congressional and media concern regarding charities
spending too much on fundraising and general management and not enough on
program services to meet charitable purposes related to tax-exempt status.53 The GAO

53
  GAO-02-526, Tax Exempt Organization: Improvements Possible in Public, IRS, and State Oversight of Charities,
April 2002, Report to the Chairman and Ranking Minority Member, Committee on Finance, U.S. Senate, Honorable
Max Baucus, Chairman, and the Honorable Charles E. Grassley, Ranking Minority Leader.




                                                       31
Cooperative Mail Rule Exception                                                                      MS-AR-09-004



report is discussed previously in the Prior Audit Coverage section of this report. The
IRS implemented all but the recommendation to develop result-oriented goals,
strategies, and measures to gauge progress in accomplishing those goals when
overseeing the charity community.54

The second and third reports resulted from a request of the Independent Sector55 by the
Chairman and Ranking Minority Member of the Senate Committee on Finance in
September 2004. The Committee was considering comprehensive reform to protect
charities from “bad actors” and to strengthen their accountability to donors. In addition,
there was an effort to construct appropriate legislative remedies and enable good self-
regulation. The Independent Sector convened a Panel on the Nonprofit Sector (Panel)
and issued two comprehensive reports with recommendations to the Senate Committee
on Finance and the Nonprofit Sector regarding transparency, governance, and
accountability of charitable organizations.56 The Panel made recommendations
concerning the role of charitable organizations in American life, the responsibilities of
the charitable community, and the need for balanced government oversight. The Panel
also made recommendations to Congress, the IRS, the FTC, state charity regulators,
and charitable organizations regarding charitable solicitation and the use of FPOs. The
charitable solicitation recommendations centered on addressing concerns about
fraudulent solicitations and about FPOs whose efforts primarily benefit themselves, not
the NPO.

Internal Revenue Service

The IRS Commissioner of Tax Exempt and Government Entities (Commissioner)
believes the IRS is responsible for providing transparency, governance and
accountability to the public and is concerned about the extent to which abuse has
emerged in the charitable sector. The Commissioner stated57 the abuse is both actual
and perceived, unsettles the environment of the charitable sector, is a threat to the

54
   GAO also conducted a study and provided testimony before the House Committee on Ways and Means,
Governance, Transparency, and Oversight Are Critical for Maintaining Public Trust, GAO-05-561T, released on
Wednesday, April 20, 2005. The GAO was asked to address the growth of the 501(c)(3) tax exempt sector, role of
governance and transparency, IRS capacity to oversee the tax exempt sector, state oversight, and the relationship of
the states with the IRS in overseeing the tax exempt sector.
55
   The Independent Sector was founded in 1980 and is a nonprofit, nonpartisan coalition of approximately 600
national public charities, foundations, and corporate philanthropy programs. In its request, the Senate Finance
Committee stated it would welcome the recommendations of the Independent Sector to assist in legislative efforts to
improve oversight and governance of charitable organizations, as well as to stimulate or initiate efforts with the
charitable community to identify and enforce standards of best practices in the areas of governance, transparency,
financial accountability, conflicts of interest, fundraising practices, and grant practices.
56
   The Senate Finance Committee was provided two reports: Strengthening Transparency, Governance, and
Accountability of Charitable Organizations, a final report to Congress and the Nonprofit Sector, June 2005; and
Strengthening Transparency, Governance, and Accountability of Charitable Organizations, a supplement to the final
report to Congress and the Nonprofit Sector, April 2006.
57
   The IRS Tax Exempt and Government Entities Commissioner testified on July 24, 2007, to the Oversight
Subcommittee, House Ways and Means Committee, on the Oversight of Tax-Exempt Organizations. The
Commissioner also provided remarks to the Georgetown Seminar Exempt Organization on April 23, 2008; the
Philanthropy Roundtable on November 10, 2007; and the Independent Sector on October 22, 2007. We also
reviewed IRS Exempt Organization Implementing Guidelines for FY 2004, FY 2005, FY 2006, FY 2007 and FY 2008.




                                                         32
Cooperative Mail Rule Exception                                                                       MS-AR-09-004



community, and requires action by regulators. IRS enforcement efforts include the
determinations program, the compliance program, and the examinations program.

The Commissioner stated the IRS’s ability to regulate the tax-exempt sector depends on
the quality of the information that tax-exempt organizations report to the IRS. The IRS
is expanding its presence in the community and making data about exempt
organizations more accessible to its agents and to the public. Transparency efforts
include (1) redesigning Form 990 to capture information that was previously not
requested of tax-exempt organizations, (2) allowing electronic filing of Form 990 and
990 EZ, (3) implementing Form 990-N (e-Postcard)58 for small exempt organizations
whose gross receipts are normally $25,000 or less, and (4) working with the charitable
sector to improve governance and accountability.

Beginning with the 2008 tax year (filing in 2009), the IRS redesign of Form 990 will
include Part VI, Governance, Management, and Disclosure, a new question that asks
about the organization’s governance structure, policies, and disclosure practices.
Another significant change includes the completion of Schedule G, Supplemental
Information Regarding Fundraising or Gaming Activity, if the organization paid more
than $15,000 in expenses for professional fundraising services, fundraising events,
and/or gaming activities. In relation to fundraising activities, Schedule G requires the
tax-exempt organization to:

     o Indicate the types of fundraising activities conducted such as mail solicitations, e-
       mail solicitations, or phone solicitations.

     o Disclose whether there was an oral or written agreement with any individual,
       including officers, directors, trustees, key employees, or entities in connection
       with professional fundraising services.

     o Disclose the 10 highest paid individuals or entities (fundraisers) that were
       compensated at least $5,000.

     o List all states in which the organization is registered or licensed to solicit funds or
       has been notified of its exemption from registration or licensing.

The IRS makes Form 990 available on their website (www.irs.gov) for public inspection.
The IRS has also worked closely with officials in several states to implement an
expanded information-sharing process to ensure the process meets the strict
confidentiality and safeguard requirements imposed by the PPA of 2006.59 During FY


58
   The Pension Protection Act (PPA) of 2006 added the 990-N e-Postcard as a requirement to ensure the IRS and
potential donors have current information about tax-exempt organizations. The first e-Postcards are due in 2008 for
tax years ending on or after December 2007 and filers can complete the form by accessing the website
http://epostcard.form990.org.
59
   PPA of 2006, Title XII, Provisions Relating to Exempt Organizations, B, Reforming Exempt Organizations, Section
1224, Disclosure to State Officials Relating to Exempt Organizations, states the IRS is now permitted to disclose to




                                                         33
Cooperative Mail Rule Exception                                                                         MS-AR-09-004



2007 the IRS received 158 referrals from state officials from 21 states, a significant
increase from the previous year.

Federal Trade Commission

The FTC Bureau of Consumer Protection’s website (www.ftc.gov) provides consumer
advice regarding charitable donations, information about charity fraud schemes, and
guidance for NPOs interested in hiring FPOs. The FTC website allows consumers to
file a complaint online. The FTC also administers the Telemarketing Sales Rule (TSR),
which Congress mandated through the Telemarketing and Consumer Fraud and Abuse
Prevention Act of 1994 (Act). TSR requires telemarketers to adhere to certain rules
when conducting telemarketing campaigns and the Act allows states to enforce the
rules in federal court.

State Charity Regulators

Currently, 39 states and the District of Columbia have some form of regulation of NPOs
and FPOs interested in soliciting donations from their residents.60 Typically, state
charity regulators and attorneys general work together to carry out the states’ charitable
solicitation laws, which are statutes designed to regulate the process of raising funds for
charitable purposes within each state.61 In most instances, state regulators require
NPOs and FPOs to register and FPOs to file annual financial disclosure reports in each
state where they conduct fundraising activities. Some states publish annual reports
listing the NPOs that have contracted with FPOs to solicit funds for charitable purposes.
These annual reports include the amount of money raised as well as the compensation
to the FPO in relation to the funds raised and administrative costs. The annual reports
and consumer information regarding charity regulation are also provided on each state’s
website.

Members of the National Association of State Charity Officials (NASCO), the
association of state offices charged with oversight of charitable organizations and
charitable solicitation in the U.S., share information regarding audits and investigations
of NPOs and FPOs. NASCO is also responsible for writing the Charleston Principles:
Guidelines on Charitable Solicitations Using the Internet. On April 30, 2008, the
president of NASCO provided a written statement to the Subcommittee on Federal
Workforce, Postal Service, and the District of Columbia regarding the CMR exception.

appropriate state officials certain information about investigations related to refusal to recognize an organization as
tax-exempt or revocation of tax exemption.
60
   According to the Giving USA Foundation’s Annual Survey of State Laws Regulating Charitable Solicitations,
January 1, 2008, 39 states and the District of Columbia require registration or licensing requirements for charitable
organizations and 11 states do not have requirements.
61
   The Value of Relationships between State Charity Regulators & Philanthropy, David Biemesderfer and Andras
Kosaras, 2006, published by the Council on Foundations and the Forum of Regional Associations of Grantmakers.
This document discusses the results of a study of 16 states and their charity regulation and enforcement efforts. The
document notes that 57 percent of all public charities and 64 percent of private foundations are located in these 16
states: New York, California, Texas, Illinois, Florida, Pennsylvania, Massachusetts, Ohio, New Jersey, Michigan,
Minnesota, Oregon, Rhode Island, South Carolina, New Hampshire, and New Mexico.




                                                          34
Cooperative Mail Rule Exception                                                MS-AR-09-004



In its statement, NASCO recommended the CMR exception be revoked or revised to
provide meaningful constraints to ensure that the benefit of the discounted postage
does not benefit FPOs.

State Attorneys General have primary responsibility for enforcing their states’ consumer
protection laws. The National Association of Attorneys General (NAAG) has a
Consumer Protection Project that works to improve the enforcement of state and federal
consumer protection laws by State Attorneys General as well as supporting multi-state
consumer protection enforcement efforts. The Consumer Protection Project also
promotes information exchange among the states with respect to investigations,
litigation, and consumer education, and both federal and state legislation. Members of
NAAG wrote the Model Charitable Solicitation Act (Act). The Independent Sector made
a recommendation in one of its reports to update the Act to address current fundraising
vehicles and practices, including the Internet, and to also encourage all state
legislatures to adopt the Act to protect donors and deter and punish charitable
solicitation abuses.

NASCO also works with the NAAG to assist with compliance and enforcement efforts.
NASCO and NAAG coordinate the Unified Registration Statement (URS), which
represents an effort to consolidate data requirements of all states that require
registration of NPOs and FPOs performing charitable solicitations within their
jurisdiction. The goal of URS is to standardize, simplify, and economize requirements
under states’ solicitation laws. Currently, 35 states and the District of Columbia accept
the URS.

Charity Watchdog Organizations

Charity watchdog organizations have websites that provide information to the general
public to assist with making charitable giving decisions. Charity Navigator, American
Institute of Philanthropy, Guide Star, and the BBB Wise Giving Alliance are all
concerned about transparency in the nonprofit sector. Some charity watchdog
organizations offer searchable databases as well as electronic versions of the NPOs’
IRS Form 990. In some instances, consumers can register to receive monthly
newsletters. The Charity Navigator’s October 2008 newsletter provided a list of the top
10 charities that overpaid their for-profit fundraisers. The information included specific
financial information about each charity and the amount of money paid for professional
fundraising. The Charity Navigator’s website also has a “frequently asked questions”
section for donors that provides answers to questions such as “how do I find a charity
on your site?” and “how can I compare charities?” In addition, the BBB Wise Giving
Alliance publishes Standards for Charity Accountability, which it developed to assist
donors in making charitable giving decisions.

Some charity watchdog organizations assess NPOs by analyzing their IRS Form 990
and other information such as audited financial statements and then assigning a letter
grade or starring system based on the results of the assessment. The methodology




                                            35
Cooperative Mail Rule Exception                                                                      MS-AR-09-004



used to assess an NPO varies by watchdog organization and we also noted that some
NPOs do not approve of some of the methods used by some watchdog organizations.62
A report on how some watchdog organizations rate charities stated evaluators may use
criteria that are overly simplistic or may tend to focus on financial measures but
overlook program effectiveness, or ratings often drive revenues to the evaluators.

Ethics and Good Business Practices

In addition to charity regulation, NPO and FPO associations actively provide information
regarding standards, governance, and contracting information to their members. Some
FPO professional fundraising associations have ethical principles with which members
must comply. The AFP publishes Ethics Enforcement, Handling and Preventing
Unethical Behavior and its website lists individuals it has expelled since 1992. DMA
publishes a Report on Ethics Committee Findings on its website which summarizes the
cases the Committee on Ethical Business Practice investigated and also notifies
interested parties if a member has been expelled from the association. Table 12
provides some regulators and overseers of NPOs and FPO.




62
  Rating the Rater, An Assessment of Organizations and Publications that Rate/Rank Charitable Nonprofit
Organizations, published by the joint task force National Council of Nonprofit Associations and the National Human
Services Assembly, 2005.




                                                         36
Cooperative Mail Rule Exception                                                                  MS-AR-09-004



                                       Table 12. Charity Regulation
   Regulation or Oversight                 Nonprofit Organization                For-Profit Organizations
IRS - Tax-Exempt Organizations          o Determinations                       None
                                        o Compliance
                                        o Examinations
                                        o Annual Form 990 or
                                           applicable document
                                        o Searchable Database
Federal Trade Commission                None                                   o Telemarketers
                                                                               o Fraudulent solicitations in
                                                                                   interstate commerce
State Charity Regulators                 o Registration                        o Registration
                                         o Searchable Database                 o Annual Financial
                                                                                  Disclosure Reports
Charity Watchdog                         o Assessment and Rating               None
Organizations63                          o Searchable Database
Postal Service                           o Authorization – Nonprofit           o CMR Exception Usage
                                             Standard Mail Rates
                                         o   Mail Content Restrictions
                                         o   CMR Exception Usage
Postal Inspection Service                o   Mail Eligibility Fraud            o Mail Eligibility Fraud
                                         o   Charity Fraud                     o Revenue Protection
Associations Representing                o   Guidance on                       None
NPO64                                        Transparency,
                                             Governance and Ethical
                                             Practices
Associations Representing                o   Guidance on Direct Mail           o Rules of Business Ethics
Professional Fundraisers and                 Campaigns                             and Practice
Direct Mailers65

Other issues that are widely discussed in the nonprofit sector include percentage based
compensation, accounting standards, and the use of fundraising expense ratios.

Several professional fundraising associations believe percentage-based compensation
should be eliminated and flat fees paid for professional fundraising services. These
organizations believe elimination of percentage-based compensation will reduce the
opportunity for fraud. Nine out of 11 direct mail FPOs we surveyed stated they are paid
a flat fee for their services and some believe that percentage-based compensation is
unethical and can provide reward without merit. The Independent Sector published
Principles for Good Governance and Ethical Practice, A Guide for Charities and
Foundations, October 2007, which provides 33 principles for charitable organization
board members and staff leaders covering four categories: legal compliance and public
disclosure, effective governance, strong financial oversight, and responsible fundraising.

63
   BBB Wise Giving Alliance, Guide Star, Charity Navigator, and American Institute of Philanthropy.
64
   NPO associations include ANM, Independent Sector, National Council of Nonprofit Associations, and DMA
Nonprofit Federation.
65
   FPO professional fundraising associations include ADRFCO, the AFP, and DMA.




                                                      37
Cooperative Mail Rule Exception                                                                        MS-AR-09-004



One of the responsible fundraising principles states a charitable organization should not
compensate internal or external fundraisers based on a commission or percentage of
the amount raised. Professional fundraising associations such as ADRFCO Rules of
Business Ethics & Practice (2003) , the AFP Code of Ethical Principles and Standards
of Professional Practice (2004), and the DMA Guidelines for Ethical Business Practice
(May 2008) do not favor percentage-based compensation.

Implementation of accounting standards varies by NPO and there are three major
bodies that issue standards for NPO financial accounting. The standard bodies are the
Financial Accounting Standards Board (FASB), American Institute of Certified Public
Accountants (AICPA), and the U.S. Office of Management and Budget (OMB). The
NPO’s accounting practices can impact the information provided on IRS Form 990.66

Accounting guidelines permit NPOs to allocate a certain amount of their fundraising
costs to their program services when their solicitation materials include educational
information. The amount of an NPOs total budget spent on programs versus the
amount spent on fundraising and administration cost is widely discussed. The AICPA
Statement of Position (SOP) 98-2, Accounting for Cost of Activities of Not-for-Profit
Organizations and State and Local Governmental Entities That Include Fund-Raising,
prescribes conditions under which costs may be split between fundraising and other
activities such as program services or operations. IRS Form 990 requires the
organization to designate whether SOP 98-2 was followed if program services expenses
represent a combined educational campaign and fundraising solicitation.

Fundraising and administrative costs as a tool to determine NPO effectiveness have
also come under scrutiny by NPOs, charity watchdog organizations, and state and
federal agencies. The NCCS issued a briefing discussing the value of financial
comparison between charities soliciting donations.67 The findings revealed that
although the ratios are important and allow consumers to make decisions regarding
charitable giving, the ratios can also be misleading. Typical standards say that NPOs
should spend no more than 25 to 50 percent of contributions on fundraising. The
briefing discusses the implications of these ratios to smaller organizations versus larger
organizations; new organizations versus established organizations; and popular versus
unpopular causes. The briefing concludes that only at the point where costs of
fundraising exceed its revenues should the public worry that an NPO is not being
efficient in its fundraising. As of November 2006, the CFC stopped using fundraising
expense ratios when determining the effectiveness of an NPO.



66
   Two standards issued by FASB include 116, Accounting for Contributions Received and Contributions Made and
117, Financial Statements of Not-for-Profit Organizations. OMB Circulars include, but are not limited to, A-122, Cost
Principles for Non-Profit Organizations, and A-133, Audits of Institutions of Higher Education and Other Non-Profit
Organizations. Other work includes the United Way of America’s Accounting and Financial Reporting: A Guide for
United Ways and Not-for-Profit Human-Service Organizations.
67
   The Pros & Cons of Financial Efficiency Standards, NCCS, Urban Institute Center on Philanthropy, Indiana
University, August 2004.




                                                         38
Cooperative Mail Rule Exception                                                                           MS-AR-09-004



As a result of a May 5, 2003, U.S. Supreme Court ruling — which states fundraising is
protected by the First Amendment freedom of speech and high fundraising expense
ratios do not constitute fraud — state charity regulators cannot prosecute an NPO or
FPO for what may be considered high fundraising expenses. However, should the FPO
or NPO mislead donors about how much of their donation supports the charity versus
how much goes toward administrative and fundraising costs, state charity regulators
can prosecute on the basis of fraud.68

National Charity Database

As stated previously, the IRS, Guide Star, NCCS, and state charity regulators have
websites that offer searchable databases on NPOs. Some of the websites allow
consumers interested in obtaining information to assist with making giving decisions to
review and print an NPO’s IRS Form 990. According to the Charity Navigator, creating
a national database is costly and must include purchasing the right hardware, software,
and database management systems. In addition to creating the database, there is a
requirement for collecting, analyzing, and inputting NPO data. The initial cost of
approximately $1,000 per NPO plus an additional $100 is required to maintain the
information as well as the time and skill to verify the accuracy. Furthermore, the Postal
Service would also have to take into account the issues previously discussed in this
report related to inconsistent accounting practices and the use of expense ratios.




68
   Supreme Court of the U.S., Illinois ex. rel. Madigan, Attorney General of Illinois vs. Telemarketing Associates, Inc.,
et al., October Term 2002, No. 01-1806, Argued March 3, 2003 – Decided May 5, 2003.




                                                           39
Cooperative Mail Rule Exception                            MS-AR-09-004



                       APPENDIX F: MANAGEMENT’S COMMENTS




                                      40
Cooperative Mail Rule Exception        MS-AR-09-004




                                  41
Cooperative Mail Rule Exception        MS-AR-09-004




                                  42
Cooperative Mail Rule Exception        MS-AR-09-004




                                  43
